                               NATIONAL SCIENCE FOUNDATION
                                    4201 WILSON BOULEVARD
                                   ARLINGTON, VIRGINIA 22230


                                        3 1 March 1995


      OFFICE OF
  INSPECTOR GENERAL




           To:        I93030011

         From:
                                                      tor General

     Through:                                           --

       Subject:       CLOSE-OUT




                                                         requires that an environmental impact
                      e prepared for major federal actions that significantly affect the human
environment. In EDF v. Massey, 986 F.2d 528 (D.C.Cir. 1992), the
held that the requirements o-Pply          to U.S. government actions in
this, it is unclear whether the leasing of th          constitutes a
signzjicantly affects the human environment.                           an attorney in the Office
of General Counsel at the National Oceanic
he informed me that NOAA had never prepared an environmental impact assessment or
statement when leasing or purchasing a ship. In addition, I was unable to locate any cases that
dealt with the application of NEPA to the government's lease or purchase of a vessel. NSF has
now adopted procedures for environmental assessments on actions involving Antarctica;
however, these procedures were adopted after th-halter            had become effective. Thus,
it does not appear that NSF violated any clear legal requuements by not preparing a-for
the lease of the

        NSF has adopted a waste regulation which deals with the disposal of waste in Antarctica.
We have received no information from the complainant or otherwise that NSF is violating this
regulation or provisions of the Antarctic Treaty regarding waste disposal by ships.

       As a result, this case is closed, and no further action will be taken.
